Department of Homeland Security
   Ofﬁce of Inspector General

            Information Sharing at the 

            National Operations Center 


                    (Redacted) 





OIG-10-15                            November 2009
                                                             Office of Inspector General

                                                             U.S. Department of Homeland Security
                                                             Washington, DC 20528




                                      November 10, 2009

                                         Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the department.

This report addresses the strengths and weaknesses of the Office of Operations
Coordination and Planning’s National Operations Center. It is based on interviews with
employees and officials of relevant agencies and institutions, direct observations, and a
review of applicable documents.

The recommendations herein have been developed to the best knowledge available to our
office, and have been discussed in draft with those responsible for implementation. We
trust this report will result in more effective, efficient, and economical operations. We
express our appreciation to all of those who contributed to the preparation of this report.




                                      Richard L. Skinner 

                                      Inspector General 

Table of Contents/Abbreviations
Executive Summary .............................................................................................................1


Background ..........................................................................................................................2


Results of Review ................................................................................................................8


     The National Operations Center Has Improved Its Information 

     Sharing Capabilities Since Hurricane Katrina ...............................................................8 


     Organizational Obstacles Continue to Challenge the National Operations Center .....16 

     Recommendations........................................................................................................20 

     Management Comments and OIG Analysis ................................................................20 


     Information Sharing Is Hindered by Administrative Challenges ................................23 

         Relationships Between the Operations and Intelligence Sides Are Strained.........23 

         Recommendations..................................................................................................26 

         Management Comments and OIG Analysis ..........................................................26 


           Formal Agreements With Participating Components and Agencies Are Needed .28 

           Recommendations..................................................................................................29 

           Management Comments and OIG Analysis ..........................................................29 


           Desk Officer Training Needs Improvement ..........................................................29 

           Recommendations..................................................................................................31 

           Management Comments and OIG Analysis ..........................................................31 


           National Operations Center Standard Operating Procedures Are Needed ............32 

           Recommendations..................................................................................................32 

           Management Comments and OIG Analysis ..........................................................33 


           Daily Exercises Need to Be More Realistic...........................................................33 

           Recommendations..................................................................................................34 

           Management Comments and OIG Analysis ..........................................................34 


     Infrastructure and Information Technology Issues Affect Collaboration....................34 

     Recommendations........................................................................................................37 

     Management Comments and OIG Analysis ................................................................37 


     Staffing Inefficiencies Need to Be Addressed .............................................................38 

         National Operations Center Reliance on Contract Support Has Increased............39 

         Recommendations..................................................................................................41 

         Management Comments and OIG Analysis ..........................................................41 


           The National Operations Center’s Reorganization Planning and Execution 

            Was Deficient .....................................................................................................41 

           Recommendations..................................................................................................44 

           Management Comments and OIG Analysis ..........................................................45 


           The Intelligence Side Would Benefit From Component Detailees .......................45 

           Recommendations..................................................................................................46 

           Management Comments and OIG Analysis ..........................................................46 


Conclusion .........................................................................................................................46


Appendixes
     Appendix A:           Purpose, Scope, and Methodology.......................................................48 

     Appendix B:           Management Comments to the Draft Report .......................................50 

     Appendix C:           National Operations Center Watch Participants ..................................57 

     Appendix D:           National Operations Center Operations and
                           Intelligence Participants.......................................................................58             

     Appendix E:           National Operations Center Operational Phases
                           and Director’s Criteria .........................................................................59 

     Appendix F:           Key Actions, Deliverables, and Target Audience................................60 

     Appendix G:           DHS Operations Center Working Group Participants .........................61 

     Appendix H:           Congressional Denial to Move the National Operations Center..........62 

     Appendix I:           Deputy Secretary Request for National Operations
                           Center Detailees ...................................................................................64         

     Appendix J:           Major Contributors to This Report ......................................................67 

     Appendix K:           Report Distribution ..............................................................................68 


Abbreviations
     ASWO                  Assistant Senior Watch Officer 

     CBP                   U.S. Customs and Border Protection 

     DHS                   Department of Homeland Security 

     FBI                   Federal Bureau of Investigation 

     HSIN                  Homeland Security Information Network 

     I&A                   Office of Intelligence and Analysis 

     IT                    information technology               

     MOA                   Memorandum of Agreement                

     NOC                   National Operations Center 

     NICC                  National Infrastructure Coordinating Center 

     NRCC                  National Response Coordination Center 

     NTC                   National Targeting Center 

     OIG                   Office of Inspector General 

     OPS                   Office of Operations Coordination and Planning 

     SWO                   Senior Watch Officer 

     TS                    Top Secret              

     TSOC                  Transportation Security Operations Center 

     TS/SCI                Top Secret/Sensitive Compartmented Information 

OIG

Department of Homeland Security
Office of Inspector General
Executive Summary
           At the request of U.S. Representative Bennie G. Thompson, Chairman of
           the House Committee on Homeland Security, we reviewed information
           sharing processes at the Department of Homeland Security’s National
           Operations Center. We focused on the functional and organizational
           changes the department has made to the National Operations Center, since
           Hurricane Katrina, to manage the flow of information better. Specifically,
           we assessed whether: (1) procedures instituted ensure that incoming
           reports are appropriately directed within the center; (2) information is
           reviewed and disseminated timely to key department officials; and (3)
           information is coordinated efficiently and effectively with other federal,
           state, and local governmental partners that have a role in response
           operations.

           Within the department, the Office of Operations Coordination and
           Planning oversees the National Operations Center and has made numerous
           improvements to the center’s information sharing capabilities since
           Hurricane Katrina. These improvements include the development and
           implementation of the operational phase and notification systems, and
           increased involvement in working groups and coordination meetings.

           Despite these improvements, a number of barriers hinder the flow of
           information. Organizational, administrative, infrastructure, information
           technology, and staffing obstacles continue to affect information sharing at
           the National Operations Center adversely.

           Our report addresses information sharing and collaboration changes at the
           National Operations Center from Hurricane Katrina’s August 2005
           landfall to completion of our fieldwork in April 2009. We are making 17
           recommendations to assist the Office of Operations Coordination and
           Planning in improving the information sharing capabilities of the National
           Operations Center. In response to our report, the Office of Operations
           Coordination and Planning has proposed plans and taken action that, once
           fully implemented, will enhance the follow of information. The
           department concurred with all 17 recommendations.




                  Information Sharing at the National Operations Center

                                         Page 1
Background
                  The federal government received widespread criticism for a slow and
                  ineffective response to Hurricane Katrina. In February 2006, after an
                  extensive evaluation of the federal government’s response, the White
                  House released its report, The Federal Response to Hurricane Katrina:
                  Lessons Learned. The report, the product of a review by the President’s
                  Homeland Security Advisor, outlined numerous failings in emergency
                  preparedness and response and made 125 recommendations to the
                  President.

                  The report concluded that the Department of Homeland Security (DHS)
                  needed both the requisite headquarters management institutions and
                  sufficient field capabilities to organize a successful federal response effort.
                  According to the report, it was essential to strengthen DHS’ headquarters
                  elements to direct the federal response, while also providing appropriate
                  resources to DHS field elements for more effective ground response efforts.

                            Recommendations of the White House Report

                            To achieve these goals, one recommendation in the report called
                            for DHS to create a new organizational structure, or National
                            Operations Center (NOC), to coordinate and integrate the national
                            response and provide a Common Operating Picture for the entire
                            federal government.1 Another recommendation was that the NOC
                            should combine, co-locate, and replace the situational awareness
                            mission of DHS’ Homeland Security Operations Center, the
                            operational mission of its National Response Coordination Center
                            (NRCC), and the role of the Interagency Incident Management
                            Group. Also, the NOC should be staffed with full-time detailed
                            employees assigned to a planning cell from relevant federal, state,
                            and local departments and agencies.

                            Prior to Hurricane Katrina, DHS’ Homeland Security Operations
                            Center served as the Nation’s nerve center for information sharing
                            and domestic incident management, increasing coordination
                            between federal, state, territorial, tribal and local governments, and
                            the private sector. The NRCC handled overall federal response
                            coordination for incidents of national significance and
                            implemented emergency management programs. The Interagency
                            Incident Management Group was responsible for strategic

1
 Common Operating Picture is a shared display of relevant and operational information (e.g., the position
of resources and status of important infrastructure such as bridges, roads, etc.) that facilitates collaborative
planning and assists all in achieving situational awareness of an event.


                            Information Sharing at the National Operations Center

                                                     Page 2
interagency-level coordination and worked to resolve resource
conflicts unresolved by the NRCC.

The White House report included three additional
recommendations intended to improve information sharing and
enhance the information reporting system.

    •	 Recommendation 16 called for a national information and
       knowledge management system for all departments and
       agencies working with the NOC to provide a Common
       Operating Picture that allows for the processing and timely
       provisioning of interagency information sources.

    •	 Recommendation 17 required the creation of a single or
       national reporting system by departments and agencies
       working with the NOC in order to establish uniform
       information flow to senior decision makers.

    •	 Recommendation 18 described the establishment of
       national information requirements and a national reporting
       chain to ensure both that accurate information is reported in
       a timely manner and that there is standard information flow
       through all levels of the incident command structure.

We used a number of recommendations in the White House report
as a baseline to determine DHS’ progress in making functional and
organizational changes to the NOC since Hurricane Katrina.

Office of Operations Coordination and Planning and the
Creation of the National Operations Center

DHS’ Office of Operations Coordination and Planning (OPS) is
responsible for monitoring the daily security of the United States.
It does so by coordinating activities within DHS, with state
governors, Homeland Security Advisors, law enforcement
partners, and with critical infrastructure operators in all 50 states.
Among its duties, OPS is responsible for overseeing the NOC,
conducting joint operations across all organizational elements,
coordinating activities related to incident management, and
employing all DHS resources to translate intelligence and policy
into action.

The NOC was officially established on May 25, 2006. Its mission
is to facilitate information sharing and operational coordination
with other federal, state, local, tribal, non-governmental, and


Information Sharing at the National Operations Center

                       Page 3
                           private sector agencies, as well as to provide situation awareness to
                           senior DHS and White House leadership. The NOC accomplishes
                           its mission through a network of coordination elements that
                           provide domestic situational awareness, a Common Operating
                           Picture, information fusion, information sharing, communications,
                           and coordination pertaining to domestic incident management and
                           the prevention of terrorism.2

                           The National Operation Center and Its Elements

                           The NOC operates 24 hours a day, 7 days a week, 365 days a year,
                           and it collects and fuses information from more than 35 federal,
                           state, local, tribal, non-governmental, and private sector agencies.
                           The NOC is composed of five elements—Watch, Intelligence
                           Watch and Warning, NRCC, the National Infrastructure
                           Coordinating Center (NICC), and the Planning Element, as shown
                           in Figure 1.




2
 Information fusion is the process of managing the flow of information and intelligence across all levels
and sectors of government and private industry, and through analysis, creating meaningful intelligence
products.


                           Information Sharing at the National Operations Center

                                                   Page 4
Figure 1: Elements of the NOC




Although the NRCC, NICC, and Intelligence Watch and Warning
are elements of the NOC, they remain independent entities under
the tactical, operational, and program management control of their
DHS components, the Federal Emergency Management Agency,
the National Protection and Programs Directorate, and the Office
of Intelligence and Analysis (I&A), respectively.




Information Sharing at the National Operations Center

                       Page 5
National Operations Center Watch Officers’ Duties and
Responsibilities

The NOC Watch is the center of operations, and information is
communicated through it to the other elements. The NOC Watch is
staffed                            on weekdays and
on weekends. Relieving personnel report to duty         before
their shift to establish situational awareness

The NOC Watch is manned by watch officers including the Senior
Watch Officer (SWO), Assistant Senior Watch Officer (ASWO),
Communications Watch Officer, Knowledge Management Officer,
Incident Management Officer, Tracker, and other agency desk
officers. Appendix C lists NOC Watch participants.

The SWOs supervise the activities of the NOC.

                                                              The
SWOs brief the NOC Director, DHS’ Secretary, Deputy Secretary,
and Chiefs of Staff on potential or actual incidents, both domestic
and international, that may affect national security.

The ASWOs serve as the SWOs’ executive watch officers. They
keep a log of      events, assist the SWOs in their duties, and act
on the SWOs’ behalf when the SWOs are absent from the NOC.
The Communications Watch Officer applies technical expertise
and facilitates communications
                   The Knowledge Management Officer prepares
visual display schemes and posts relevant information
                                                     The Incident
Management Officer finds vetted sources and distills information
                                                   The Tracker
monitors intelligence threats or incidents


A number of desk officers are detailed to the NOC from DHS
components and other federal agencies. Desk officers provide
subject matter expertise and liaise with agency officials and other
watch centers to collect valuable information.

In fall 2008, the NOC underwent reorganization. Several SWO
and ASWO positions are now staffed by DHS component detailees
serving 2-year assignments, and the NOC reimburses their salaries.
Before the reorganization, the SWO and ASWO positions were
staffed entirely by full-time government employees hired on a


Information Sharing at the National Operations Center

                       Page 6
permanent basis; individuals formerly serving in these positions
have found new positions within DHS or have left the department.

Operations and Intelligence Sides of the National Operations
Center

The NOC is divided into two sections, the Operations Side and the
Intelligence Side. These sections function in tandem,
                                                   and share
information. Both sections are on the same floor; however, a wall
separates the sections;




The Operations Side tracks emergency management and law
enforcement activities across the country that may affect national
security.
                                               The SWO is located
on the Operations Side, along with the DHS component desks and
state and local law enforcement officers.

The Intelligence Side focuses on classified intelligence and uses
that information in support of emergency management and law
enforcement activities.

                              The Intelligence Side consists of the
Senior Intelligence Analysts, Intelligence Analysts, the Intelligence
Watch and Warning branch of the NOC, and the U.S. Secret
Service desk officers.




Information Sharing at the National Operations Center

                       Page 7
                    Information Sharing Platforms at the National Operations
                    Center

                    The NOC maintains situational awareness through shared
                    programs such as the Homeland Security Information Network
                    (HSIN). HSIN is a comprehensive web-based platform that
                    facilitates real-time Sensitive But Unclassified information sharing
                    and collaboration with federal, state, local, tribal, private sector,
                    and international partners. HSIN also hosts the Common
                    Operating Picture and provides situational awareness and analysis
                    of emerging events to state and local officials, and across the
                    federal government.

                    As part of the Common Operating Picture, NOC officials can post
                    valuable information, such as situation reports and technical data
                    regarding unfolding events or recovery efforts. NOC products
                    such as NOC Notes and Situation Reports provide detailed real-
                    time information to NOC partners. By using these products,
                    interested parties can access reports and other detailed information
                    such as statistics and interactive maps.


Results of Review
     OPS has made numerous improvements to information sharing capabilities at the
     NOC since Hurricane Katrina. However, a number of barriers hinder the effective
     and efficient flow of information. Organizational, administrative, infrastructure,
     information technology (IT), and staffing obstacles continue to affect information
     sharing and collaboration at the NOC adversely. Although NOC officials and
     managers acknowledge most of these barriers, they have made limited progress in
     correcting the challenges. However, NOC officials are committed to mitigating
     or eliminating obstacles that limit the NOC’s effectiveness, or ability to fulfill its
     mission.


     The National Operations Center Has Improved Its Information
     Sharing Capabilities Since Hurricane Katrina
            The NOC has made numerous improvements to its information sharing
            capabilities since Hurricane Katrina. Improvements include the
            operational phase and notification systems, and an increased involvement
            of NOC management in working groups and coordination meetings. As a
            result of these improvements, NOC managers are able to process
            information and distribute it to key decision makers better.


                    Information Sharing at the National Operations Center

                                           Page 8
The National Operations Center Now Operates Under an
Operational Phase System

During Hurricane Katrina, the NOC’s operational phase system did
not exist. As of February 2007, the NOC
                                  respond to time-sensitive
incidents in a decisive manner depending on severity. Before the
operational phase system was implemented, a NOC official said
that when events occurred, there was no level of severity
associated with an incident. Now there are “key actions” that must
be performed once a certain threshold of severity is reached. This
official added that NOC management developed the
       system,


Figure 2: NOC Operational Phases




These phases correspond to the NOC Director’s Criteria, which
represent a list of increasingly severe events that are thresholds for
the NOC to transition to increased operational postures. The
Director’s Criteria range from routine national and international
events that may be of interest to DHS officials, to events so severe
or catastrophic that the federal government must assume the
highest operational level. During each operational phase, the NOC
performs a set of key actions and develops deliverables
collectively aimed at target audiences.




Information Sharing at the National Operations Center

                       Page 9
Figure 3: NOC Operational Phase System




             Information Sharing at the National Operations Center 


                                    Page 10

The National Operations Center’s Notification System Has
Been Enhanced

To ensure DHS leadership’s awareness of emerging events and
domestic threats, the NOC has updated its notification system




The SWO, along with NOC leadership, uses the information
obtained                      to determine the appropriate
NOC phase.




Information Sharing at the National Operations Center

                      Page 11
                           Figure 4: NOC Notification Sequence of Key Actions




                           To determine whether NOC officials disseminated relevant, useful,
                           and timely information to key department officials, we reviewed
                           six past events reported to the NOC. The events, which occurred
                           from August 2006 to February 2008, represent the type and variety
                           of incidents faced by an all-hazards operations center such as the
                           NOC. These events involved information sharing and operational
                           coordination with multiple DHS components and external
                           agencies, and had implications for a broad spectrum of national
                           security concerns. The events also involved emergency
                           management efforts and an incident involving the biological
                           warfare agent ricin.5

                           Event One: Threat to Commercial Aircraft

                           In August 2006, a terrorist plot was uncovered in which several
                           individuals planned to detonate liquid explosives carried onboard
                           several commercial aircraft traveling from the United Kingdom to
                           the United States and Canada. Efforts to disrupt this plot involved
                           valuable intelligence gathering, surveillance, and the eventual
                           arrests of multiple conspirators by British law enforcement.
3
  T = Time when incident was reported to the NOC. T+ indicates the number of minutes from the initial
report to the time a key action should be completed.
4
  The Crisis Action Team is activated to take on the responsibilities of the NOC Watch during a phase 2 or
phase 3 event or threat. The Crisis Action Team prepares executive summaries, situation reports, and other
briefing products, responds to requests for information, and frames the courses of action and policy
decisions to facilitate the DHS Secretary’s informed interaction with DHS principals and interagency peers.
5
  Ricin is a toxin created from the waste of processed castor beans that can be weaponized as a powder,
spray, or pellet. It is highly poisonous; a dose the size of a pinhead (approximately 0.5 milligrams) can kill
an adult.


                           Information Sharing at the National Operations Center

                                                   Page 12
                          Event Two: Drug-Resistant Strain of Tuberculosis

                          In May 2007, a U.S. Customs and Border Protection (CBP)
                          Inspector allowed an individual infected with a drug-resistant
                          strain of tuberculosis to cross the border into the United States
                          from Canada.



                          Event Three: Threat to Petroleum Pipelines at John F. Kennedy
                          International Airport

                          In June 2007, a joint investigation by the New York City Police
                          Department, the Federal Bureau of Investigation (FBI), and the
                          New York City Port Authority resulted in the arrests of four
                          individuals plotting to attack John F. Kennedy International
                          Airport by planting explosives on the airport’s jet fuel supply tanks
                          and pipelines.

                          Event Four: Wildfires in Southern California

                          In October 2007, state and federal emergency responders battled a
                          series of wildfires in Southern California that affected seven
                          counties and resulted in extensive damage and mass evacuations.
                          Drought, hot weather, and strong Santa Ana winds fueled these
                          fires.6

                          Event Five: Power Outage in Miami, Florida

                          In February 2008, a failed switch and fire at an electrical substation
                          resulted in widespread blackouts throughout much of South
                          Florida, including all of Miami, and reached as far as Tampa and
                          Orlando.

                          Event Six: Ricin Incident in Las Vegas, Nevada

                          In February 2008, law enforcement and emergency responders
                          were called to a Las Vegas hotel, where a guest had contacted
                          authorities to report he was suffering from respiratory distress.
                          Upon entering the hotel room, emergency personnel discovered a
                          substance that was later determined to be ricin.



6
 Santa Ana winds are dry and warm, often hot winds in the Southern California area that blow in from the
desert.


                          Information Sharing at the National Operations Center

                                                 Page 13
                          Figure 5 lists the selected events, corresponding date, highest NOC
                          phase determination, and the number of minutes required to post
                          the initial phase notification to HSIN.

             Figure 5: NOC Selected Events for Review




                          The threat to commercial aircraft from London to the United States
                          and the aircraft passenger with tuberculosis occurred before the
                          NOC’s use of the phased notification system. Figure 6 shows that,
                          with the exception of the John F. Kennedy pipeline incident, NOC
                          personnel did not meet their established notification requirements,
                          but our analysis revealed that information did get to key decision
                          makers in a timely manner for all six events. For example, during
                          the Southern California wildfires, DHS’ Secretary requested that
                          information regarding the event be included in the Secretary’s
                          Morning Brief before making the phase notice determination.7




7
  The DHS Secretary’s Morning Brief is a daily compilation of material, including articles, operational
reports, and intelligence briefings from component agencies and collaborative agencies such as the FBI and
the Central Intelligence Agency. These materials and the related briefing are intended to allow the
Secretary to maintain full situational awareness of events affecting national security.


                          Information Sharing at the National Operations Center

                                                 Page 14
Working Groups and Coordination Meetings Have Enhanced
Information Sharing

NOC management has increased involvement in working groups
and coordination meetings. One NOC staff member said daily
communication between NOC leadership and entities such as the
NRCC, the NICC, and other component command centers such as
the Transportation Security Administration’s Transportation
Security Operations Center (TSOC), and CBP’s National Targeting
Center (NTC) has increased professional relationships and fostered
information sharing. Although not part of the NOC, the TSOC and
the NTC work closely with NOC officials. The TSOC is the
primary coordination point for multiple agencies that deal with
transportation security. The NTC is the primary coordination point
for tactical targeting and analytical research in support of CBP’s
anti-terrorism efforts.

In addition, NOC leadership initiated the Department of Homeland
Security Operations Centers Working Group to provide a
departmental information sharing forum. The group was chartered
in February 2008, and its membership includes directors and
operations officers from 14 DHS operations centers. Appendix G
lists the participating DHS operations centers.

The goals of the Operations Centers Working Group are to:

    •	 Enhance relationships by creating a forum with established
       agency and department representation;
    •	 Improve information flow, mission coordination, and
       national reporting between federal operations centers in the
       areas of incident management, planning, training, and
       exercises;
    •	 Facilitate information sharing, situational awareness, and
       decision making; and
    •	 Aid issue resolution and leverage capabilities.

The working group meets every other month, and the NOC
Director is its Chairperson. The Operations Centers Working
Group can establish standing committees to achieve its objectives
and governance. Standing committees are required to report to the
NOC Director.




Information Sharing at the National Operations Center

                      Page 15
Organizational Obstacles Continue to Challenge the National
Operations Center
     Although NOC management has made improvements following Hurricane
     Katrina, a number of issues still hinder the effective and efficient flow of
     information. Most significantly, the NOC is negatively affected by
     organizational issues such as not having requisite authority, ambiguities in
     its mission, and an unclear chain of command. The overall focus of the
     NOC shifts between emergency management, terrorism prevention, and
     law enforcement. However, following Hurricane Katrina, the NOC began
     to dedicate most of its resources to emergency management rather than
     terrorism prevention. Many NOC staff contends that this shift in focus is
     detrimental to NOC intelligence and law enforcement functions.

            The National Operations Center Does Not Possess Requisite
            Authority and Needs More Executive-Level Support to
            Accomplish Its Mission

            Federal laws such as the Homeland Security Act of 2002 and the
            Post Katrina Emergency Management Reform Act of 2006, require
            the NOC to ensure that critical information is disseminated to key
            DHS and other government decision makers. However, no
            statutory authorities require components to forward information to
            the NOC. For example, DHS components routinely provide
            information to DHS’ Secretary without first informing the NOC.
            These actions prevent the NOC from fully satisfying its
            information sharing obligations and could affect its ability to
            maintain situational awareness or a Common Operating Picture
            during a natural or manmade disaster or act of terrorism.




            Information Sharing at the National Operations Center

                                  Page 16
                            Responsibilities Are Defined in Law

                            In the Homeland Security Act of 2002, Congress emphasized that
                            federal, state, and local entities should share information to the
                            maximum extent practicable.8 The act further stated that federal,
                            state, and local governments and intelligence, law enforcement,
                            and other emergency preparation and response agencies must act in
                            partnership to maximize the benefits of information gathering and
                            analysis to prevent and respond to terrorist attacks. To comply
                            with the information sharing provisions of this act, in 2003 DHS
                            created the Homeland Security Operations Center. Following
                            Hurricane Katrina and the Post Katrina Emergency Management
                            Reform Act of 2006, the Homeland Security Operations Center
                            gained additional situational awareness responsibilities and was
                            renamed the NOC.9

                            According to the Post Katrina Emergency Management Reform
                            Act of 2006, the NOC is the principal DHS operations center and
                            provides situational awareness for the federal government and for
                            state, local, and tribal governments as appropriate, during a natural
                            or manmade disaster or act of terrorism. The Post Katrina
                            Emergency Management Reform Act of 2006 also requires the
                            NOC to ensure that critical terrorism and disaster-related
                            information reaches government decision makers. In accordance
                            with the National Response Framework, the NOC serves as the
                            national fusion center, collecting and synthesizing all-source
                            information, including information from state fusion centers,
                            across all threats and all hazards.10

                            The National Operations Center Has No Stated Authority to Direct
                            DHS Component Participation

                            Although the NOC combines the subject matter expertise of the
                            law enforcement, emergency management, and intelligence
                            communities, it was not designed to possess operational
                            capabilities. One NOC official said the center is operational only
                            in name, and does not have the capabilities or authority to direct
                            DHS component resources or personnel. He added that the NOC is
8
  6 U.S.C. § 481.
9
  6 U.S.C. § 321d.
10
   Approved in January 2008, the National Response Framework is a guide that presents the key response
principles, participants, roles, and structures that guide the Nation’s response operations. It describes
specific authorities and best practices for managing incidents that range from the serious but purely local, to
large-scale terrorist attacks or catastrophic natural disasters requiring federal assistance. It was written for
the use of government executives, private sector and nongovernmental organization leaders, and emergency
management practitioners.


                            Information Sharing at the National Operations Center

                                                    Page 17
responsible for coordination and must politely request information
from DHS components. Another NOC official stated that other
DHS operation centers such as the NRCC, the TSOC, and the NTC
are “charting their own course” and rely very little on the NOC
because they possess operational capabilities. Another NOC
official said that government officials rely more heavily on entities
external to DHS, such as the Office of the Director of National
Intelligence’s National Counterterrorism Center and the FBI’s
National Joint Terrorism Task Force, for information and
intelligence, because they are operational in nature. The National
Counterterrorism Center is the primary organization for integrating
and analyzing all intelligence pertaining to terrorism possessed or
acquired by the U.S. government. The National Joint Terrorism
Task Force is a command center representing nearly 30 agencies
that collects terrorism information and intelligence from local or
regional task forces and coordinates interagency efforts at
combating terrorism.

Resources Were Focused on Emergency Management
Following Hurricane Katrina

Following Hurricane Katrina, the NOC’s main mission focus
shifted to emergency management, although personnel are tasked
with maintaining all-hazards response readiness. NOC managers
assert that the center is doing an excellent job focusing on “all
threats.” However, the focus on emergency management and
disaster assistance has resulted in a greater separation between the
Intelligence and Operations sides of the NOC. One NOC desk
officer told us that after Hurricane Katrina, everything turned to
disaster assistance and recovery, and described this change as a
“pendulum swing effect.”

Some NOC desk officers said the focus on emergency management
has negatively affected the NOC’s ability to respond to multiple
concurrent events. Originally, the NOC’s predecessor, the
Homeland Security Operations Center, was designed to respond to
three simultaneous events. After Hurricane Katrina, some NOC
personnel said the center has “become an arm of the Federal
Emergency Management Agency,” and they contend that the change
has diminished the ability of all NOC personnel to respond to
terrorist threats. Multiple NOC desk officers expressed concern
regarding the NOC’s ability to respond to a scenario involving both
a natural disaster and a terrorist incident. Although these desk
officers told us the NOC would likely be able to respond to both



Information Sharing at the National Operations Center

                      Page 18
events, they are concerned that NOC resources would be strained
and that information sharing abilities would be affected.

Additional Review Levels May Slow Information Flow

The restructuring of OPS and the NOC, which began in 2008,
created additional levels of review and reporting that may slow the
flow of information to senior leadership. According to internal
documents, NOC personnel must vet information through multiple
levels of management before sharing it with the DHS Secretary or
other key officials. Desk officers reported that new vetting
requirements are more cumbersome than the old process in which
SWOs spoke directly with the Secretary regarding emerging
events. An internal document titled Standing Order #4, dated May
20, 2008, describes the current reporting requirements. SWO and
ASWO detailees receive this document as part of their orientation.
Standing Order #4 provides a comprehensive list of tasks that
should be considered when a threat, hazard, incident, or event is
reported to the NOC. After making a phase determination, the
SWO must notify as many as four levels of management before
notifying the Secretary.




Before the restructuring, the SWO had greater authority to report
information directly to the DHS Secretary, and some view the
current notification and reporting practices as more cumbersome.
One SWO said he spoke directly to the Secretary on a regular basis
before the restructuring. Additional levels of review and reporting
tend to act as a “stick and rudder” steering operations at the NOC.
Another SWO remarked, “The delay in getting timely information
to the Secretary would likely be double what it was during Katrina.”

Situational Awareness Efforts Are Influenced by Media
Coverage

An overwhelming concern expressed by most of the NOC
personnel we spoke with is the effect of the media on day-to-day
operations. They call this the “CNN Effect.” NOC management
expects its personnel to provide vetted, accurate information


Information Sharing at the National Operations Center

                      Page 19
     concerning emerging threats, hazards, incidents, or events.
     However, information requests from some senior department
     officials are frequently driven by major media news sources.
     These information requests are problematic because initial reports
     by media sources are often not as accurate as needed for the
     NOC’s vetting and reporting requirements. Unlike the media,
     NOC desk officers cannot amend their reports easily, and getting
     accurate firsthand accounts from first responders is often difficult
     given the emergent and high-pressure nature of emergency
     response duties and activities. The CNN Effect causes a great deal
     of frustration for NOC desk officers and senior managers.

Recommendations
     We recommend that the DHS Deputy Secretary:

     Recommendation #1: Engage senior Department of Homeland
     Security headquarters and component officials to explore options
     for improving the timeliness of component and operation center
     reporting to the National Operations Center.

     We recommend that the Director of the Office of Operations
     Coordination and Planning:

     Recommendation #2: Ensure that the National Operations
     Center’s mission focus, as the National Fusion Center, emphasizes
     all-hazard response readiness, and that its mandate to provide
     situational awareness for the federal government and for state,
     local, and tribal governments as appropriate, during a natural or
     manmade disaster or act of terrorism, is clearly articulated.

     Recommendation #3: Convene a multiple-component working
     group, with Senior Watch Officer participation, to evaluate
     whether the current review and reporting flow of information is the
     most efficient and effective way of delivering potential threats to
     senior department leadership.

Management Comments and OIG Analysis
     We evaluated OPS’ written comments and have made changes to
     the report where we deemed appropriate. A summary of OPS’
     written response to the report’s recommendations and our analysis
     of the response follows each recommendation. A copy of OPS’
     response, in its entirety, is included as Appendix B.



     Information Sharing at the National Operations Center

                           Page 20
OPS Response: OPS concurred with Recommendation 1. In its
response, OPS management said the NOC serves as the National
Fusion Center, and federal departments and agencies "should
report information regarding actual or potential incidents requiring
a coordinated Federal response to the NOC." For events falling
outside of the National Response Framework, DHS Directive 252­
06 and DHS Instruction 252-06-001 establish DHS’ operational
reporting requirements. OPS management stated that the directive
and instruction do not apply to all components; however, the
instruction includes time and frequency of reporting requirements.
OPS management recently conducted an initial assessment of
component reporting, and will soon brief the Component
Operations Deputies on the results of the assessment. OPS
management plans to revise the reporting instruction and will work
to address component and operation center directives that conflict
with DHS reporting instructions.

OIG Analysis: We consider OPS’ proposed actions responsive to
the recommendation, which is resolved and open. This
recommendation will remain open pending our receipt of the
revised reporting instruction.

OPS Response: OPS concurred with recommendation 2. In its
response OPS management said federal law has already established
the NOC's mission as described in the recommendation. As stated
in the Homeland Security Act of 2002, the "NOC is the principal
operations center for DHS, and it shall provide situational
awareness and a common operating picture for the entire Federal
government, and for State, local, and tribal governments as
appropriate, in the event of a natural disaster, act of terrorism, or
other man-made disaster." The National Response Framework
identifies the NOC as the National Fusion Center, and in this
capacity the NOC fulfills its mission by fusing information from
state fusion centers and law enforcement, intelligence, emergency
response, open source, and private sectors. The NOC disseminates
this information to its homeland security partners.

With respect to meeting the needs of these homeland security
partners, the NOC also fulfills its mission in the following ways:
providing broad, 24/7 all-threats, all-hazards situational awareness;
remaining vigilant in its monitoring and tracking of activities that
may threaten the homeland; and focusing on emerging and
ongoing events to prevent, protect, respond to, and recover from "a
natural disaster, act of terrorism, or other manmade disaster." For
example, during hurricane and wildfire seasons the NOC maintains


Information Sharing at the National Operations Center

                      Page 21
a heightened awareness posture regarding these potential disasters,
while still monitoring events across the country and abroad. OPS
agrees that the NOC’s current mission focus should emphasize all-
threats and all-hazards response readiness, and OPS will continue
to staff the NOC with federal, state, and local partners who
concentrate on prevention, protection, response, and recovery.

OIG Analysis: We consider OPS’ proposed actions unresponsive
to the recommendation, which is unresolved and open. OPS did
not address the change in mission focus as outlined in our report.
Mission focus is a distinct concept from the formal legislated
mission as established through the Homeland Security Act of 2002.
Although federal law establishes the NOC’s mission, there has
been a noticeable shift in mission focus
                     . Multiple desk officers said this shift
               has            affected the NOC’s ability to respond
                   . Although maintaining heightened awareness
                                      is significant, it does not
demonstrate the NOC’s ability                                     .
Rather, this demonstrates a heightened awareness
         . To be responsive and to resolve this recommendation,
OPS needs to provide internal policy and planning documents
demonstrating that the NOC is prepared for concurrent events


OPS Response: OPS concurred with Recommendation 3. In its
response, OPS management said multiple-component operations
center working groups currently exist, and one function of these
groups is to review information reporting flows. The Director of
the Operations Coordination Division chartered and hosts a bi­
monthly National Capital Region Interagency Operations Center
Working Group meeting and a DHS Component Operations Center
Working Group meeting. Started in 2008 and 2007 respectively,
these working groups discuss and vet operational issues, to include
information reporting processes. Directors of the various
operations centers attend these meetings on behalf of their
respective centers, and OPS will encourage NOC Senior Watch
Officers (SWOs) to attend. For any known events, such as
National Special Security Events, terrorist threat exercises,
hurricanes, wildfires, etc..., the working groups spend a great deal
of time evaluating and tailoring the flow of information prior to the
events.

OIG Analysis: We consider OPS’ proposed actions responsive to
the recommendation, which is resolved and open. This


Information Sharing at the National Operations Center

                      Page 22
            recommendation will remain open pending our receipt of
            documentation related to working group meetings in which
            information sharing is the focus. These meetings should also
            include Senior Watch Officer participation.


Information Sharing Is Hindered by Administrative Challenges
     Although some progress and improvements have been made, NOC
     information sharing is hindered by a number of administrative concerns.
     For example, difficulty obtaining higher-level security clearances
     complicates interaction between the NOC’s Operations Side and
     Intelligence Side personnel. This complication is more evident for law
     enforcement detailees assigned to the NOC. The NOC does not require
     formal agreements with DHS component detailees. Executing these
     agreements, improving desk officer training, and creating formalized
     standard operating procedures would help define detailee roles and
     responsibilities better, while also improving information sharing. The
     realism of daily training exercises for NOC personnel should be enhanced
     to provide more meaningful opportunities for the exchange of information
     and to practice roles and responsibilities.

            Relationships Between the Operations and Intelligence Sides
            Are Strained

            Despite the need for Operations Side and Intelligence Side
            personnel to work in tandem to achieve all-hazards NOC readiness,
            a disconnect exists because of an unclear chain of command and
            the inability of the Operations Side to obtain higher-level security
            clearances. At times, we observed tense relationships between the
            two sides, which negatively affect information sharing. NOC
            managers need to enhance efforts to assimilate both sides into one
            cohesive and effective unit, with a common goal to provide
            situational awareness in the event of a disaster or act of terrorism.

            There is also a need for more clarity regarding the chain of
            command when sharing information at the NOC. The Intelligence
            Side and the Operations Side have separate chains of command.
            Intelligence Side personnel report to the Under Secretary for I&A,
            while Operations Side personnel report to the Director of OPS.


                                       An I&A employee on the Intelligence
            Side said that he is not 100% sure of the SWO and ASWO roles
            and responsibilities.


            Information Sharing at the National Operations Center

                                  Page 23
                                         Another desk officer
remarked, “The SWOs can get better information from CNN


As stated earlier, the SWOs manage and supervise the activities of
the NOC and are responsible for maintaining awareness of all
intelligence and operations being managed by DHS and NOC
components. The SWOs are also responsible for briefing DHS
senior leadership regarding potential or actual incidents, both
domestic and international that may affect national security.

We determined that some SWOs were not receiving the necessary
information to brief DHS senior leadership on emerging issues.
One desk officer stated that I&A has taken over control of the
Intelligence Side of the NOC. Not everything the SWOs need to
receive is being passed through the correct channels. A desk
officer added that the working relationship with the Operations
Side has further diminished in recent months. Another desk officer
said the Intelligence and Operations sides play in different worlds,
and 90% of what I&A knows, the SWOs do not know.

Inability to Obtain Higher-Level Security Clearances Also Divides
the National Operations Center

Another factor that affects information sharing is the difference in
security clearance levels between the NOC’s Intelligence Side and
Operations Side personnel. NOC management acknowledges past
inefficiencies and has taken positive actions to address some
problems related to clearance levels. Despite these improvements,
issues regarding security clearance level still exist. Getting all
NOC personnel cleared to a higher level would enable greater
interaction with I&A personnel.

Personnel on the Intelligence Side have
             while many personnel on the Operations Side have
only the                                    This creates
classification and physical barriers. For example, the Intelligence
Side operates independently and is separate from the rest of the
facility, and most Operations Side personnel are not permitted to
enter the Intelligence Side. Although progress has been made in
obtaining the highest practical security clearance level for NOC
personnel, NOC leadership should further emphasize sharing
sanitized intelligence information in an unclassified format to



Information Sharing at the National Operations Center

                      Page 24
                           benefit law enforcement and emergency management and response
                           efforts.

                           Divisions Also Exist Between Intelligence and Law Enforcement

                           The relationship between law enforcement and intelligence desk
                           officers is also somewhat divided. Intelligence Side personnel
                           voiced concern that law enforcement officers are not familiar with
                           the proper procedures for handling classified information. Law
                           enforcement officers need training to understand what is required
                           of them and what information they can release. Law enforcement
                           and intelligence desk officers indicated that they would benefit
                           from training in the other’s area of expertise. Both stated that, at a
                           minimum, an overview of each side’s missions, duties, and
                           responsibilities would enable them to leverage their strengths
                           better.

                           If Intelligence Side personnel and law enforcement desk officers
                           interacted more frequently, intelligence analysts would understand
                           what information is beneficial to local law enforcement on the
                           Operations Side. Although tear line reporting is useful, better
                           professional and personal relationships and collaboration between
                           the two sides could elevate the quality and usefulness of the
                           information they share.11 Cross training would enable personnel to
                           see the differences in duties and responsibilities, gain a better
                           working knowledge of the others’ capabilities, and help foster
                           professional and personal relationships, which are integral to
                           information sharing.

                           Some NOC personnel describe state and local law enforcement
                           participation as “a coalition of the willing.” Officers are detailed
                           to the NOC and can return to their original organization with little
                           notice, as resources within individual law enforcement agencies
                           determine NOC staffing levels. NOC officials said that they are
                           hesitant to expend funds to obtain higher-level security clearances
                           for desk officers who are detailed for an indeterminate period. The
                           NOC needs longer commitments from individual departments and
                           their detailees before investing the resources to obtain higher-level
                           security clearances. With a commitment from law enforcement
                           desk officers for extended service periods, NOC officials would be
                           more likely


11
  A “tear line” is a demarcation on an intelligence report below which the unclassified version of a more
highly classified and controlled report begins. This permits dissemination of essential information to wider
audiences as it no longer contains sensitive sources and methods.


                           Information Sharing at the National Operations Center

                                                  Page 25
Recommendations
     We recommend that the Director of the Office of Operations
     Coordination and Planning:

     Recommendation #4: Clearly define the chain of command for
     all personnel at the National Operations Center and clarify that
     personnel working in the National Operations Center report
     through the Senior Watch Officer on all issues affecting
     Department of Homeland Security operations and the Secretary’s
     situational awareness.

     Recommendation #5: Establish procedures and develop guidance
     to share classified information with the Operations Side in an
     unclassified format, including revised documents and tear lines
     when necessary.

     Recommendation #6: Clear personnel
                             to facilitate information sharing between
     Intelligence and Operations Side personnel.

     Recommendation #7: Cross train law enforcement officers and
     intelligence desk officers assigned to the National Operations
     Center on one another’s duties and responsibilities to gain a better
     understanding of each area of expertise.

Management Comments and OIG Analysis
     OPS Response: OPS concurred with Recommendation 4. In its
     response, OPS management said the current NOC policy is that
     desk officers provide operationally relevant information to the
     SWO. Desk officers may also provide this information to their
     parent organization(s). The current NOC chain is articulated in the
     NOC Desk Officer Guide. OPS management said they will review
     the chain of command with all NOC officers and provide the us
     with a copy of the NOC Desk Officer Guide.

     In addition to the information provided in the guide, each NOC
     watch shift performs an internal drill in which desk officers
     practice the steps they take when responding to real-world
     incidents. Successful completion of these drills requires execution
     of the chain of command. OPS management said that in 2008, the
     NOC conducted drills for       scenarios and has conducted
     drills for scenarios in 2009. OPS management added that they will
     provide copies of the scenarios to us.


     Information Sharing at the National Operations Center

                           Page 26
OIG Analysis: We consider OPS’ proposed actions responsive to
the recommendation, which is resolved and open. This
recommendation will remain open pending our receipt of the NOC
Desk Officer Guide, which articulates the current NOC chain of
command and documentation of the watch shift drills in which
desk officers practice the steps taken when responding to real-
world incidents.

OPS Response: OPS concurred with Recommendation 5. In its
response, OPS management said the NOC's Intelligence, Watch,
and Warning element has standing procedures for sanitizing and
sharing information at all classification levels. Requests for tear
lines are processed routinely through Intelligence Community
partners, unclassified information is disseminated via email,
appropriately cleared information is posted to DHS portals, and
classified briefings are open to all appropriately-cleared NOC
personnel. Intelligence, Watch, and Warning personnel also work
closely with DHS representatives at state and local fusion centers
and with NOC desk officers to facilitate the sharing of intelligence
information with federal, state, local, and tribal governments and
private sector partners.

OIG Analysis: We consider OPS’ proposed actions responsive to
the recommendation, which is resolved and open. This
recommendation will remain open pending our receipt of
Intelligence, Watch, and Warning procedures for sanitizing and
sharing information at all classification levels and tear line
documentation. The tear line documentation should include copies
and the number of tear lines shared with the Operations Side of the
NOC for FY 2009.

OPS Response: OPS concurred with Recommendation 6. In its
response, OPS management said all U.S. government full-time
employees assigned to the NOC are required to possess a
           The NOC prefers that all detailees possess

                                                      Many of the
detailees are assigned to the NOC on rotations of six months or
less.



OPS management said that the recently-created OPS Detailee
Affairs Program is drafting MOUs with component and


Information Sharing at the National Operations Center

                      Page 27
interagency partners to establish standard operating procedures.
The MOUs will stipulate longer time commitments from
interagency partners. With respect to personnel detailed from the
federal interagency community, home agencies must sponsor
                     OPS will require that federal agencies sponsor
their employees for                    , per DHS policy.

OIG Analysis: We consider OPS’ proposed actions responsive to
the recommendation, which is resolved and open. The
recommendation will remain open pending our receipt of MOUs
with the component and interagency partners. These MOUs
should require longer commitments from interagency partners and
that federal agencies sponsor their employees for


OPS Response: OPS concurred with Recommendation 7. In its
response, OPS management said the NOC provides training to
operations desk officers so they better understand how to request
and use intelligence products. The NOC also provides training to
intelligence analysts so they better understand the level of support
needed by various operations desk officers. NOC management
stated they have co-located full-time NOC personnel with law
enforcement backgrounds with intelligence personnel to expedite
the learning process.

OIG Analysis: We consider OPS’s proposed actions responsive
to the recommendation, which is resolved and open. This
recommendation will remain open until our receipt of materials
used to train operations desk officers on how to request and use
intelligence products, and intelligence analysts training materials
on the level of support various operations desk officers need.

Formal Agreements With Participating Components and
Agencies Are Needed

Formal agreements are needed with all agencies that detail
personnel to the NOC. Formal commitments ensure that detailed
personnel clearly understand their roles and responsibilities, and
they are less likely to return to their original organization with little
prior notice. Currently, only one Memorandum of Agreement
(MOA) exists, with the Department of Defense for the National
Geospatial-Intelligence Agency desk officer. The NOC needs to
institute formal MOAs with all participating DHS components and
external agencies.



Information Sharing at the National Operations Center

                      Page 28
     The MOAs should define, at a minimum, the duration and
     commitment of the detail, the duties and responsibilities, and the
     professional or subject matter expertise of the detailees. DHS
     headquarters should initiate these formal agreements and have each
     agency participating in NOC operations or detailing personnel to
     the NOC sign an agency-specific agreement. Executing MOAs
     will ensure that expectations are fully met and adequately
     communicated to component organizations. The agreements will
     also provide NOC officials with the necessary level of
     commitment to expend resources to obtain higher-level security
     clearances.

Recommendations
     We recommend that the Director of the Office of Operations
     Coordination and Planning:

     Recommendation #8: Establish formal Memoranda of
     Agreement with Department of Homeland Security components
     and organizations providing desk officers to the National
     Operations Center. The agreements should define, at a minimum,
     the duration of the detail, required clearance level, duties and
     responsibilities, and the required area and level of expertise.

Management Comments and OIG Analysis
     OPS Response: OPS concurred with Recommendation 8. In its
     response, OPS management said they recently created a Detailee
     Affairs Program that will establish and coordinate MOAs with
     components and organizations. These MOAs will define the
     duration of the details, the required clearance levels, generic duties,
     and management responsibilities.

     OIG Analysis: We consider OPS’s proposed actions responsive
     to the recommendation, which is resolved and open. This
     recommendation will remain open pending our receipt of the
     Detailee Affairs Program position descriptions, evidence that the
     positions have been filled, and copies of MOAs.

     Desk Officer Training Needs Improvement

     NOC managers said they had implemented an effective training
     program for the NOC SWO and ASWO reorganization. SWO and
     ASWO detailees received training that included classroom
     instruction, shadowing existing SWOs and ASWOs, and written


     Information Sharing at the National Operations Center

                           Page 29
and oral examinations. They also received comprehensive study
materials and an informative training handbook. However, these
materials were not available to desk officers previously detailed to
the NOC. Many desk officers interviewed said that an effective
training program would help them understand their responsibilities
and optimize their ability to achieve desired goals.

NOC managers contend that training opportunities provided to new
employees are adequate, although they acknowledge that there is
room for improvement. In direct contrast to statements of NOC
management, several desk officers reported that they received no
formal training when they began their NOC detail. These officers
told us there was no guidance describing day-to-day
responsibilities, and all training occurred on the job. One detailed
desk officer said there was a general orientation to DHS
headquarters and the Nebraska Avenue Complex. However, this
did little to prepare him for duty at the NOC. The training focused
on proximity to eating establishments, parking, and facility layout.
This desk officer described his indoctrination to the NOC as a
“trial by fire.”

NOC desk officers said that new desk officers relied heavily on
other NOC personnel to train them. Some desk officers obtained
individually created handbooks left by their predecessors that
explained duties and responsibilities. Standard instructions would
help ensure that new desk officers are aware of all aspects of their
jobs.

The reliance on other NOC personnel and predecessors is
problematic because detailees may be unwilling to ask questions
when they need assistance or information. Desk officers need to
be trained not only on their own duties and responsibilities, but
also on the duties and responsibilities of all other NOC personnel.
One desk officer said the NOC would benefit greatly by instituting
an intensive training course on duties and responsibilities. He said
that the NOC should also train detailees in the duties and
responsibilities of other desks. Cross training would allow
individual desk officers to understand the duties and
responsibilities of their counterparts from other components better.

In addition to developing and implementing training for desk
officers, NOC officials need to create an employee handbook that
provides useful information to incoming detailees. An employee
handbook would provide a quick reference tool to help
inexperienced desk officers gain information on multiple subjects.


Information Sharing at the National Operations Center

                      Page 30
     This handbook should familiarize desk officers with general
     operations, desk officer duties and responsibilities, computer
     systems, accessibility of programs, and proper classification
     procedures.

     Some Desk Officers Are Not Prepared to Handle National
     Operations Center Duties




Recommendations
     We recommend that the Director of the Office of Operations
     Coordination and Planning:

     Recommendation #9: Develop an orientation and training
     program for new desk officers on the duties and responsibilities of
     all National Operations Center desks. This program should include
     the development and distribution of a handbook that familiarizes
     personnel with general operations, desk officer duties and
     responsibilities, computer systems, accessibility of programs, and
     proper classification procedures.

Management Comments and OIG Analysis
     OPS Response: OPS concurred with Recommendation 9. In its
     response, OPS management said the NOC staff has published a
     NOC Desk Officer Guide that includes information on general
     NOC operations, computer systems, available programs, and
     classification procedures. The NOC Desk Officer Guide continues
     to be updated. The staff is currently documenting the duties and
     responsibilities of each desk officer and will add the results to the
     NOC Desk Officer Guide. Additionally, the NOC has hired a
     training officer to focus on individual and collective training needs
     and issues.



     Information Sharing at the National Operations Center

                           Page 31
    OIG Analysis: We consider OPS’ proposed actions responsive to
    the recommendation, which is resolved and open. This
    recommendation will remain open pending evidence that the
    training officer position has been filled, our receipt of detailed
    training plans for new desk officers, and a copy of the updated
    NOC Desk Officer Guide.

    National Operations Center Standard Operating Procedures
    Are Needed

    Although some NOC desk officers have developed standard
    operating procedures on an ad hoc basis, OPS has not established
    comprehensive operating procedures or guidance to define NOC
    roles and responsibilities. NOC management has noted the need
    for operating instructions and standing orders to help maintain
    consistency and accountability. However, NOC management was
    unable to produce formalized standard operating procedures when
    requested. Instead, during our fieldwork we collected operating
    procedures from individual desk officers, many of which were
    outdated or drafted by individual detailees.

    NOC managers said they have not been able to establish formal
    standard operating procedures for each desk because the mission
    constantly changes. Not having standard procedures is most
    problematic for law enforcement desks because the frequent
    turnover of assigned personnel creates a need for continuity.
    Although law enforcement officers have created informal
    procedures, all desk officers told us that headquarters-driven
    standard operating procedures would benefit overall NOC
    operations. Standard procedures would provide continuity for
    incoming detailees.

Recommendations
    We recommend that the Director of the Office of Operations
    Coordination and Planning:

    Recommendation #10: Create comprehensive standard operating
    procedures that define the duties and responsibilities of each desk
    at the National Operations Center and guide personnel on proper
    actions and procedures.




     Information Sharing at the National Operations Center

                           Page 32
Management Comments and OIG Analysis
     OPS Response: OPS concurred with Recommendation 10. In its
     response, OPS management said the NOC has a series of standard
     operating procedures and operating instructions in place, and the
     duties and responsibilities of the various desk officers are currently
     being added to the NOC Desk Officer Guide.

     OIG Analysis: We consider OPS’ proposed actions responsive to
     the recommendation, which is resolved and open. This
     recommendation will remain open pending our receipt of the
     updated NOC Desk Officer Guide, which includes the duties and
     responsibilities specific to each desk assigned to the NOC.

     Daily Exercises Need to Be More Realistic

     NOC personnel participate in daily exercises with scenarios that
     address a variety of events involving multiple DHS components.
     While these exercises can be helpful in maintaining readiness and
     can facilitate information sharing, most NOC personnel told us the
     training scenarios are fairly basic and repetitive. Some stated that
     the exercises were at times factually inaccurate or unrealistic,
     which can be partially attributed to little input by components and
     scenario development by non-subject matter experts. A desk
     officer said, “Exercises repeat themselves and frequency is
     trumping quality and active, full participation.” Other desk
     officers said the training scenarios, although helpful to new
     personnel, do little to challenge more experienced detailees.

     To add value, the frequency and effect of exercises should be
     balanced, involve more participants, and include realistic and
     factually based scenarios to simulate real-world threats, hazards,
     incidents, and events. Additionally, collaboration with
     components would provide opportunities for the exchange of
     information. NOC training personnel should use component
     detailees to create more involved and factually accurate scenarios
     to equip desk officers better to handle real-world scenarios.
     Additionally, the NOC should enhance communication and
     leverage the expertise of other component watch centers to create
     more focused, events-driven training while practicing respective
     roles and responsibilities. For instance, the NOC could leverage
     training scenarios created by the TSOC, CBP’s Commissioner’s
     Situation Room, and the NRCC to further train NOC personnel.




     Information Sharing at the National Operations Center

                           Page 33
     Recommendations
            We recommend that the Director of the Office of Operations
            Coordination and Planning:

            Recommendation #11: Enhance communication with
            components and leverage subject matter expertise to create
            exercise scenarios that include realistic and factually based
            scenarios


     Management Comments and OIG Analysis
            OPS Response: OPS concurred with Recommendation 11. In its
            response, OPS management said the NOC has improved
            coordination with components and interagency partners prior to
            and during training events, and the NOC continues to create more
            integrated training scenarios. NOC management reiterated that
            each NOC watch shift conducts drills. SWOs and ASWOs draft
            these drills,
                          They also added that they will further improve
            exercise scenarios and drills by involving component subject
            matter experts in the creation of more
                                        NOC management said they recently
            hired a NOC training officer to focus on training needs and issues.

            OIG Analysis: We consider OPS’ proposed actions responsive to
            the recommendation, which is resolved and open. The
            recommendation will remain open pending our receipt of
            documentation that demonstrates component subject matter
            experts’ involvement in exercise scenario and drill development.


Infrastructure and Information Technology Issues Affect
Collaboration




     improvements are necessary to enable the NOC to realize its full potential
     as DHS’ principal operations center for providing situational awareness
     for federal, state, local, and tribal governments in the event of a natural or
     manmade disaster or act of terrorism.


             Information Sharing at the National Operations Center

                                   Page 34
Personnel Would Benefit From an Upgraded Facility or
Build-out

Most NOC personnel we spoke with said the current facility is
inadequate to support the NOC’s unique demands. The building
housing the NOC cannot accommodate the number of personnel
required to operate a watch operation of its size. NOC personnel
said the need to update the facility is self-evident, and we agree.

NOC management is aware that the facility is inadequate and has
made efforts to relocate. On June 29, 2007, DHS’ Undersecretary
for Management submitted a letter to Congress requesting a
reallocation of approximately $25 million to fund construction of a
new NOC facility at the department’s TSOC in Herndon, Virginia.
Although congressional officials recognized the “significant
limitations of the existing facility,” Congress did not approve the
reallocation of funds. The response to the request is in Appendix H.




All NOC personnel we spoke with expressed the need for a
significant build-out of current facilities or a complete relocation to
a new or better equipped facility. Additionally, many personnel
suggested that the NOC would benefit from being co-located with
the TSOC or the NICC to enhance professional relationships.
They said the existing building and infrastructure could not be
improved sufficiently to support operations, and thought that
having a structure near another watch center would improve
synergy and situational awareness.

Deficiencies Exist in Equipment and Information Technology
Support

We observed        equipment and IT deficiencies at the NOC;
management did not provide us with statistics on equipment
outages and IT support requests.

Despite assurances by managers that the situation has improved,
most NOC personnel we spoke with indicate that issues



Information Sharing at the National Operations Center

                      Page 35
NOC Intelligence Side desk officers use multiple systems and
monitors at each workstation to access classified and unclassified
information. When one of the monitors or hard drives fails to
operate, personnel use unclassified systems at one workstation to
access unclassified systems and augment their usage with classified
systems at another workstation. This “leapfrogging” between
workstations has lasted for as long as three days. On a few
occasions, analysts have gutted some computers to use parts for
others, rather than wait for IT support.

Many equipment issues stem from the wear and tear

                                      Dust and fluctuations in
temperature affect hard drives and other equipment such as servers
and copiers. Deficiencies are not limited to hardware, but also
extend to software.




                    I&A personnel said that system malfunctions
sometimes complicate the sharing of necessary information with
senior leadership during     briefings.

Although equipment issues and response times are major factors
affecting NOC operations, a detailed analysis of related data could
not be conducted because appropriate tracking mechanisms are not
in place. OPS were unable to provide relevant data related to the
frequency of equipment failures and IT support requests. Tracking
and cataloging such data would enable NOC personnel to analyze
problem areas, identify trends, and determine possible solutions to
equipment issues better.



Information Sharing at the National Operations Center

                      Page 36
Recommendations
     We recommend that the Director of the Office of Operations
     Coordination and Planning:

     Recommendation #12: Provide onsite 24/7 technical support for
                                                            Information
     and communications systems in the National Operations Center,
     and ensure the capability
                       exists, so that management can address problem
     areas related to equipment failures and deficiencies in information
     technology support.

     Recommendation # 13: Invest in          computer technology to
     address                         deficiencies and 

     issues at the National Operations Center. 


     Recommendation #14: Communicate to all personnel their ability
     to access the Homeland Security Information Network on their
     individual workstations, and formally train all personnel on its
     situational awareness and information sharing capabilities.


Management Comments and OIG Analysis
     OPS Response: OPS concurred with Recommendation 12. In its
     response, OPS management said a process and application to
                                          in use by the NOC. OPS
     management added that they do not have the resources required for
     onsite 24/7 technical support.




                  A          report summarizing identified problems and
     associated corrective actions is provided to the Office of the Chief
     Information Officer and OPS’ Chief Information Officer.

     OIG Analysis: We consider OPS’ proposed actions responsive to
     the recommendation, which is resolved and open. The
     recommendation will remain open pending our receipt of OPS’
     requests for onsite 24/7 technical support to the NOC, and copies
     of the weekly reports used to summarize identified problems and
     associated corrective actions for FY 2009.



     Information Sharing at the National Operations Center

                           Page 37
             OPS Response: OPS concurred with Recommendation 13. In its
             response, OPS management said it contributes to a Working
             Capital Fund for the specific purpose of providing funding to the
             DHS Office of the Chief Information Officer, which is responsible
             for refreshing/replacing OPS IT equipment. Currently, the only
             NOC computers being replaced are those that stop functioning.
             The OPS Chief Information Officer is working with the DHS
             Office of the Chief Information Officer to finalize a plan for
             regular upgrades to and replacement of computer equipment in the
             NOC. In addition to




             OIG Analysis: We consider OPS’ proposed actions responsive to
             the recommendation, which is resolved and open. The response to
             the recommendation will remain open pending our receipt of the
             final plan that specifies the timeline for equipment replacement.

             OPS Response: OPS concurred with Recommendation 14. In its
             response, OPS management said all operations, intelligence,
             emergency management, and law enforcement personnel in the
             NOC are trained on and have access to HSIN. Individuals are
             provided the requisite password, granted access to various
             communities of interest, and receive training on how to log on to
             and navigate HSIN.

             OIG Analysis: We consider OPS’ proposed actions responsive to
             the recommendation, which is resolved and open. The
             recommendation will remain open until OPS provides us with
             documentation of a formal training plan that includes training
             requirements for HSIN.


Staffing Inefficiencies Need to Be Addressed
      Although NOC officials have made some progress concerning staffing,
      inefficiencies that could affect information sharing remain. For example,
      some key NOC operations are dependent on contract support personnel.
      Should current contractor support be removed, the continuity of NOC
      operations and information sharing could be disrupted, as contractors have
      taken on increased duties and responsibilities.


             Information Sharing at the National Operations Center

                                   Page 38
Some contractors may be performing inherently governmental functions.
For example, one contractor has program manager responsibilities and
oversees seven NOC functions: the fusion desk, the Tracker, the
Knowledge Management Officer, the
representative, the Secretary’s Briefing Staff, the
chemical/biological/radiological/nuclear desk, the explosive incidents
desk, and the state and local law enforcement desks. The contractor is
also performing all fusion desk duties. While a review to determine
whether NOC contractors are performing inherently governmental
functions is outside the scope of this review, we believe the issue warrants
further attention by our office.

       National Operations Center Reliance on Contract Support Has
       Increased

       The NOC relies heavily on contractor staff to perform its mission
       functions. Since FY 2006, the NOC’s use of contractors has
       increased 195%. Sixty-two percent of the NOC’s FY 2009 budget
       is designated for contract support. NOC management plans to
       spend $11.2 million for contract support in FY 2009. By
       comparison, NOC management spent $3.8 million on contractors
       in FY 2003 (see Figures 6 and 7).

       Figure 6: NOC Contract Funding for FY 2006 to 2009

                                   12

                                                                                       11.2
                                   10
          Amount ($ in millions)




                                   8
                                                                                7.8
                                   6


                                                          5.2
                                   4
                                        3.8
                                   2


                                   0
                                        2006              2007                  2008   2009
                                                                 Fiscal Years


       Source: OIG Analysis of NOC contracting funding data




       Information Sharing at the National Operations Center 


                                               Page 39

Figure 7: NOC FY 2009 Funding Allocation




                                Other
                                                   Government
                                 8%
                                                   Employees
                                                      30%


                             Contractors
                                62%




Source: OIG Analysis of NOC contracting funding data

A SWO said contractors were needed in the first three years, but
that they should have been subsequently replaced with full-time
federal employees. The SWO also said that contractors’ technical
expertise is not as important as stated by management, and some
contractors’ jobs could be performed by a federal government
General Schedule grade 9 or 11. Another desk officer said that
only a few NOC employees are federal employees and that most
are contractors, which may indicate that some contractors are
performing inherently governmental functions.

The NOC contracts for the Communications Watch Officer,
Knowledge Management Officer, Fusion Desk Officer, Tracker,
HSIN Desk Officer, Incident Management Desk Officer, and
media monitoring desk officer positions, and for a NOC senior
advisor. The Communications Watch Officer initiates the NOC
conference calls, takes roll call of call participants, takes notes
during such calls, monitors the calls for clarity, and conducts tests
of each call list. The Incident Management Officer takes notes
during NOC conference calls and prepares the related NOC Call
Summary Report.

NOC management said the reliance on contractors is due to the
need for more experienced staff and the inability to hire staff for
shift work. According to NOC management, there is an effort to
replace some of the contract support with full-time government
employees. However, no developmental plan is in place for
federal employees. A NOC manager told us the center will


Information Sharing at the National Operations Center

                      Page 40
     gradually stop using contract support once the NOC can fill the
     full-time government positions, resulting in significant overall cost
     reductions.

Recommendations
     We recommend that the Director of the Office of Operations
     Coordination and Planning:

     Recommendation #15: Continue efforts to replace contractors
     with full-time federal employees.

Management Comments and OIG Analysis
     OPS Response: OPS concurred with Recommendation 15. In its
     response, OPS management said that in line with the Secretary's
     desire to reduce reliance on contractors, OPS developed a 4-year
     plan, subject to funding, to hire full-time federal employees to
     perform inherently governmental functions.

     OIG Analysis: We consider OPS’ proposed actions responsive to
     the recommendation, which is resolved and open. The
     recommendation will remain open pending our receipt of the 4­
     year plan to hire full-time federal employees to perform inherently
     governmental functions.

     The National Operations Center’s Reorganization Planning
     and Execution Was Deficient

     NOC management described the 2008 reorganization of the SWO
     and ASWO positions as an attempt to provide more variety in
     leadership and to help personnel deal with the high pressures and
     rigorous schedule associated with watch operation positions. The
     reorganization was also an effort to bring in the additional
     expertise of component watch officers. However, the
     reorganization has had an adverse effect on information sharing.
     Intelligence Side personnel are more reluctant to share information
     with the NOC Watch because they do not have professional
     relationships with personnel detailed to the NOC. In addition, one
     SWO could not gain access to the Intelligence Side because he did
     not have                     Instead, information had to be directed
     to his attending ASWO, resulting in additional delays in decision
     making. The reorganization’s transition did not have formal plans,
     and managers did not explain the changes clearly to NOC
     personnel. NOC managers should have placed more emphasis on


     Information Sharing at the National Operations Center

                           Page 41
developing formal plans for the transition and on communicating
those plans to NOC personnel.

Reorganization Had No Formal Plans

No formal plans or training programs were in place to facilitate the
NOC reorganization. Although managers assured us that such
documents and training programs were in place, our interviews,
data requests, and analysis do not indicate that such documents or
training programs existed. The only document supplied regarding
the NOC reorganization was a three-page memorandum titled
“Converting the National Operations Center Senior Watch Officers
and Assistant Senior Watch Officer Positions to Reimbursable
Detailee Positions.” A copy of this document is in Appendix I.

The memorandum, which was signed by DHS’ Deputy Secretary,
described how the reorganization “will allow component expertise
to be represented at the senior level and will bring the experience
Component personnel gained at the NOC back to their parent
organizations.” The memorandum provides a general outline of
proposed changes, but is not a detailed, formal plan.

Although NOC desk officers acknowledge the need to make
assignments more sustainable, personnel stress that SWO and
ASWO detailees need a vetted, established training program before
taking over operations. The memorandum does not discuss
training, and does not address who will pay the salaries of former
SWOs and ASWOs, although it does mention that component
detailees will be reimbursable. Other than the statement “a
selection panel will make final selections for the position,” the
memorandum includes few details relating to the application
process.

There are broader implications to not having a formal plan for the
reorganization. Detailees were assigned to the NOC without
formal MOAs between DHS headquarters and component
organizations. This is problematic in that detailed SWOs and
ASWOs could be pulled back to component organizations with
little prior notice. In addition, the memorandum dictates that the
following components are required to nominate at least two people
for the SWO and ASWO positions, respectively, by
September 7, 2008:

    •   CBP
    •   Federal Emergency Management Agency


Information Sharing at the National Operations Center

                      Page 42
    •   U.S. Immigrations and Customs Enforcement
    •   Transportation Security Administration
    •   U.S. Citizenship and Immigration Services
    •   U.S. Coast Guard
    •   U.S. Secret Service

These components provided fewer applicants than expected, and
the deadline was extended. However, the reorganization had
already been announced to NOC personnel, and a number of
SWOs and ASWOs left for new positions. This situation could
have created a significant leadership vacuum at the SWO and
ASWO level. Formal planning documents for the reorganization
would have provided viable contingency plans to assist NOC
management in addressing such unforeseen staffing issues.

Managers Were Not Transparent Regarding Proposed Changes and
Were Unreceptive to Suggestions

Despite efforts to communicate the reorganization to components,
NOC managers’ communications with NOC personnel were not
transparent regarding the proposed changes to the SWO and
ASWO positions. Although the reorganization was announced to
NOC employees in May 2008, affected personnel were not
provided formal guidance regarding staffing changes. A NOC
employee told us “it was as if the hammer had dropped, and the
floor was numb.” Another SWO reported that the SWOs and
ASWOs were told they needed to find other employment by
October 1, 2008. Since their positions were not being eliminated
and staff did not fall under reduction in force provisions,
employees were not considered displaced within the department
and were not eligible for unemployment assistance.

The uncertainty regarding changes to the NOC resulted in anxiety
and morale issues for all NOC employees. Although the
department’s Office of the Chief Human Capital Officer offered
assistance to affected personnel, this assistance was slow to
materialize. Many SWOs and ASWOs applied for jobs outside
DHS to ensure continued employment.

Reorganization plans should have provided a vehicle for input and
suggestions from displaced SWOs and ASWOs. However, NOC
management largely dismissed employee suggestions regarding
changes. Such suggestions were often valid and would have
resulted in a more effective reorganization. A number of NOC
employees felt the new SWOs should be staffed from current NOC


Information Sharing at the National Operations Center

                      Page 43
    desk officers. Such staffing would shorten the learning curve of
    detailed personnel and ensure that individuals possessed
    operational knowledge. SWOs and ASWOs also suggested
    keeping on some seasoned personnel to develop standard operating
    procedures and operating instructions. Finally, NOC personnel
    cautioned management about the amount of time it takes to clear
    personnel to the                                    As a result of
    delays in the           process, one of the component SWOs has
    been excluded from the NOC’s Intelligence Side. Similar delays
    in the           process could result in negative effects on future
    information sharing between the Intelligence and Operations sides.

    Reorganization Timing Was Problematic

    The reorganization’s timing was problematic. The replacement of
    SWOs and ASWOs was scheduled during a series of important
    national events. NOC personnel felt the impending elections,
    ongoing hurricane season, planning for the presidential
    inauguration, and the resulting change of administration created a
    high-stress period and was not the appropriate time to reconstitute
    NOC leadership. These operational concerns likely resulted in the
    decision by NOC management to delay the transition past the
    original date of October 1, 2008. Nevertheless, some component
    detailees assumed responsibility for NOC operations in January
    2009, one week before the inauguration.

    Had a significant event occurred, NOC desk officers expressed
    uncertainty as to whether component detailees possessed the
    knowledge, expertise, and experience to initiate an appropriate
    response. A desk officer expressed concern because the elections
    and resulting change in administrations presented a prime
    opportunity for terrorists to strike. Another NOC employee said
    that even without the elections, the new SWOs and ASWOs would
    face a steep learning curve. Regardless of the possible effects of
    the reorganization, NOC personnel will experience another period
    of transition in two years, when all recently detailed staff complete
    their rotation and return to their parent organizations.

Recommendations
    We recommend that the Director of the Office of Operations
    Coordination and Planning:

    Recommendation #16: Develop formal planning documents and
    internal guidance for all future staffing changes or organizational


     Information Sharing at the National Operations Center

                           Page 44
     realignments, to enhance effective, timely, and accurate
     information sharing and continuity of operations.

Management Comments and OIG Analysis
     OPS Response: OPS concurred with Recommendation 16. In its
     response, OPS management said that during the last two years,
     staffing changes and organizational realignments have reflected the
     implementation of the Mission Blueprint study conducted for OPS
     by Booz Allen Hamilton and delivered to OPS in March 2007.
     Further changes based on new requirements and additional mission
     taskings continually need to be reconciled with the organizational
     structure and capabilities that were previously outlined in the
     Mission Blueprint. OPS management added that they will develop
     a formal plan, which will establish procedures to ensure continued
     operations regardless of staffing changes.

     OIG Analysis: We consider OPS’ proposed actions responsive to
     the recommendation, which is resolved and open. The
     recommendation will remain open pending our receipt of the
     formal plan that ensures continued operation when faced with
     staffing changes.

     Intelligence Side Would Benefit From Component Detailees

     The NOC’s Intelligence Side would benefit from increased
     involvement of component intelligence officers in day-to-day
     operations. NOC management said the center’s reorganization was
     intended to increase component involvement and leverage the
     expertise of subject matter experts to improve information sharing.
     However, DHS component detailees are largely limited to the
     Operations Side. Although the Intelligence Side is staffed with
     multiple desk officers, there is only one component detailee from
     the U.S. Secret Service. Additional Intelligence Side detailees
     could enhance component relationships, while also providing for a
     more effective exchange of information.

     Detailed intelligence officers would enable the NOC to leverage
     specific areas of expertise to fulfill its mission better. In addition,
     individual DHS components would benefit from increased
     information sharing as detailees gain valuable insight into watch
     and warning functions. At the conclusion of their detail, NOC
     desk officers will have developed key skills and abilities that
     contribute to the overall mission of their component. As a result,
     detailed intelligence officers would gain institutional knowledge


     Information Sharing at the National Operations Center

                           Page 45
           and professional contacts necessary to link departmental
           information gathering efforts in the field with efforts at DHS
           headquarters.

    Recommendations
           We recommend that the Director of the Office of Operations
           Coordination and Planning:

           Recommendation #17: Augment the Intelligence Side of the
           National Operations Center with intelligence officer detailees from
           DHS components to enhance relationships and facilitate
           information sharing.

    Management Comments and OIG Analysis
           OPS Response: OPS concurred with Recommendation 17. In its
           response, OPS management said that while this recommendation is
           fully supported by OPS, it is problematic for components due to
           the limited number of component intelligence analysts. To further
           diversify the NOC’s human capital resources, the OPS Director
           will formally request intelligence analysts and officers from the
           components via the DHS Under Secretary for Intelligence and
           Analysis.

           OIG Analysis: We consider OPS’ proposed actions responsive to
           the recommendation, which is resolved and open. The
           recommendation will remain open pending our receipt of
           documentation that OPS has solicited the DHS Under Secretary for
           Intelligence and Analysis regarding detailing intelligence analysts
           to the NOC and the disposition of those requests.


Conclusion
    Although OPS has made significant progress at the NOC, a number of
    areas require improvement. Organizational, administrative, infrastructure,
    IT, and staffing obstacles continue to hinder NOC information sharing and
    collaboration. Federal laws such as the Homeland Security Act of 2002
    and the Post Katrina Emergency Management Reform Act of 2006 require
    the NOC to serve as the principal DHS operations center and provide
    situational awareness for the federal government and for state, local, and
    tribal governments as appropriate. However, because the NOC does not
    possess the operational capacity or authority to require DHS components


           Information Sharing at the National Operations Center

                                 Page 46
and other watch centers to channel information through the NOC Watch to
key decision makers, it is unable to meet these requirements.

NOC information sharing is further hindered by administrative concerns,
including disparities in security clearance levels among personnel, a need
for formal MOAs, and an absence of official standard operating
procedures. NOC management acknowledges inadequacies related to
infrastructure, but has been unable to gain funding and approval for a
sufficient build-out of the current facility or construction of a new facility.
Furthermore, NOC officials need to address significant staffing
inefficiencies to improve overall operations and effectiveness. OPS is
overly reliant on contract support personnel to fill NOC positions, and
recent staffing changes have been deficient in both planning and
execution.

To complete its mission successfully, the NOC needs support from key
executive department officials and stakeholders. To this end, DHS
leadership needs to emphasize the NOC’s importance in enhancing
information sharing efforts throughout DHS, the federal government, and
with state and local entities and regional fusion centers. Specifically,
components and component watch centers should be required to direct all
relevant information to the NOC to ensure that critical terrorism, law
enforcement, and disaster-related information reaches government
decision makers timely and accurately.

As DHS leadership emphasizes the NOC’s importance and key
department officials provide the requisite support to its operations, the
NOC will be positioned better to realize its full potential as intended by
Congress—as DHS’ principal operations center, providing situational
awareness for the federal government and for state, local, and tribal
governments, as appropriate, in the event of a natural or manmade disaster
or act of terrorism.




        Information Sharing at the National Operations Center

                              Page 47
Appendix A
Purpose, Scope, and Methodology

                   We assessed information sharing at the NOC in response to a
                   request from U.S. Representative Bennie G. Thompson, Chairman
                   of the House Committee on Homeland Security. Our review
                   focused on the functional and organizational changes DHS made to
                   the NOC after Hurricane Katrina to manage the flow of
                   information better. Our objectives were to determine whether:

                       •	 New procedures instituted ensure that incoming reports are
                          appropriately directed within the center;
                       •	 Information is reviewed and disseminated timely to key
                          department officials; and
                       •	 Information is coordinated efficiently and effectively with
                          other federal, state, and local government partners that have
                          a role in response operations.

                   To accomplish our objectives, we reviewed the NOC’s current and
                   former processes for managing the flow of information to ensure
                   that incoming reports are appropriately directed within the center.
                   This included reviewing all relevant NOC and OPS regulations,
                   policies, and procedures, as well as interviewing NOC employees.

                   We analyzed six past events during which information had been
                   reviewed and disseminated to key department officials to
                   determine whether the information reported was relevant, useful,
                   and timely.

                   To assess whether information was coordinated efficiently and
                   effectively with other federal, state, and local partners, we
                   examined current NOC staff composition, situational awareness
                   tools used by personnel, relevant working groups, relationships
                   between the NOC and mission partners, participation in training
                   and joint exercises, and processes used to communicate real-time
                   information to DHS leadership.

                   Although our review focused on DHS headquarters personnel, we
                   interviewed more than 100 NOC staff, as well as others from DHS
                   components and mission partners. For comparative purposes, we
                   also visited coordination and operations centers in the Washington,
                   DC, metropolitan area. We visited the department’s NRCC,
                   Mount Weather Facility, NICC, TSOC, U.S. Coast Guard
                   Command Center, CBP’s Commissioner’s Situation Room, NTC-
                   Passenger, and NTC-Cargo. In addition, we visited other federal
                   department operation centers, such as the Office of the Director of
                   National Intelligence’s National Counter Terrorism Center and the


                   Information Sharing at the National Operations Center

                                         Page 48
Appendix A
Purpose, Scope, and Methodology

                   Department of Defense’s National Joint Operations Intelligence
                   Center.

                   Our fieldwork began in June 2008 and concluded in April 2009.
                   We initiated this review under the authority of the Inspector
                   General Act of 1978, as amended, and according to the “Quality
                   Standards for Inspections,” issued by the President’s Council of
                   Integrity and Efficiency.




                   Information Sharing at the National Operations Center

                                         Page 49
Appendix B
Management Comments to the Draft Report




                  Information Sharing at the National Operations Center 


                                         Page 50

Appendix B
Management Comments to the Draft Report




                  Information Sharing at the National Operations Center 


                                         Page 51

Appendix B
Management Comments to the Draft Report




                  Information Sharing at the National Operations Center 


                                         Page 52

Appendix B
Management Comments to the Draft Report




                  Information Sharing at the National Operations Center 


                                         Page 53

Appendix B
Management Comments to the Draft Report




                  Information Sharing at the National Operations Center 


                                         Page 54

Appendix B
Management Comments to the Draft Report




                  Information Sharing at the National Operations Center 


                                         Page 55

Appendix B
Management Comments to the Draft Report




                  Information Sharing at the National Operations Center 


                                         Page 56

Appendix C
National Operation Center Watch Participants




                     Information Sharing at the National Operations Center 


                                            Page 57

Appendix D
National Operation Center Operations and Intelligence Participants




                                         Information Sharing at the National Operations Center 


                                                                Page 58

Appendix E
National Operations Center Operational Phases and Director’s Criteria




                    Information Sharing at the National Operations Center 


                                           Page 59

Appendix F
Key Actions, Deliverables, and Target Audience




                    Information Sharing at the National Operations Center 


                                           Page 60

Appendix G
DHS Operations Center Working Group Participants


            U.S. Citizenship and Immigration Services Command Center

            U.S. Coast Guard Command Center

            U.S. Computer Emergency Readiness Team Operations Center

            U.S. Customs and Border Protection Commissioner’s Situation Room

            Domestic Nuclear Detection Office Joint Analysis Center

            Federal Air Marshal Service Mission Operations Center

            Federal Emergency Management Agency Operations Center

            U.S. Immigration and Customs Enforcement Operations Center

            Incident Management Cell, Contingency Planning & Incident
            Management Division – Office of Infrastructure Protection, National
            Protection and Programs Directorate

            National Coordination Center – National Communications System,
            National Protection and Programs Directorate

            National Operations Center

            Office of Health Affairs – National Bio-surveillance Integration Center

            Transportation Security Operations Center

            U.S. Secret Service Intelligence Division Duty Desk




            Source: DHS Operations Centers Working Group Charter




                    Information Sharing at the National Operations Center

                                          Page 61
Appendix H
Congressional Denial to Move the National Operations Center




                    Information Sharing at the National Operations Center 


                                           Page 62

Appendix H
Congressional Denial to Move the National Operations Center




                    Information Sharing at the National Operations Center 


                                           Page 63

Appendix I
Deputy Secretary Request for National Operations Center Detailees




                    Information Sharing at the National Operations Center 


                                           Page 64

Appendix I
Deputy Secretary Request for National Operations Center Detailees




                    Information Sharing at the National Operations Center 


                                           Page 65

Appendix I
Deputy Secretary Request for National Operations Center Detailees




                    Information Sharing at the National Operations Center 


                                           Page 66

Appendix J
Major Contributors to this Report


                    Marcia Moxey Hodges, Chief Inspector, Department of Homeland
                    Security, Office of Inspector General, Office of Inspections

                    Angela Garvin, Senior Inspector, Department of Homeland
                    Security, Office of Inspector General, Office of Inspections

                    McKay Smith, Inspector, Department of Homeland Security,
                    Office of Inspector General, Office of Inspections




                    Information Sharing at the National Operations Center

                                          Page 67
Appendix K
Report Distribution


                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff for Operations
                      Chief of Staff for Policy
                      Deputy Chiefs of Staff
                      General Counsel
                      Executive Secretariat
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs
                      Under Secretary for Office of Intelligence and Analysis
                      Director for Office of Operations Coordination and Planning
                      Director, GAO/OIG Liaison Office
                      Operations Coordination Audit Liaison

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate




                      Information Sharing at the National Operations Center 


                                             Page 68

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
